TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                          RECOVERY ACT


                     Processes Were Not Established to Verify
                      Eligibility for Residential Energy Credits



                                             April 19, 2011

                                Reference Number: 2011-41-038




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
5 = Information concerning a pending law enforcement proceeding (FOIA subsection b(7)(A))



  Phone Number | 202-622-6500
  Email Address | TIGTACommunications@tigta.treas.gov
  Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


PROCESSES WERE NOT ESTABLISHED                       Based on our review of a statistically valid
TO VERIFY ELIGIBILITY FOR                            sample of 150 tax returns, TIGTA was unable to
RESIDENTIAL ENERGY CREDITS                           confirm home ownership for 45 (30 percent) of
                                                     the taxpayers. Home ownership is required to
                                                     claim Residential Energy Credits.
Highlights                                           Finally, our review identified 362 ineligible
                                                     individuals who were allowed to erroneously
Final Report issued on April 19, 2011                claim $404,578 in Residential Energy Credits on
                                                     their tax returns. These individuals were
Highlights of Reference Number: 2011-41-038          allowed to erroneously claim these credits
to the Internal Revenue Service Commissioner         because the IRS did not develop a process to
for the Wage and Investment Division.                identify prisoners or individuals under the age
                                                     needed to enter into a contract to purchase a
IMPACT ON TAXPAYERS                                  residence. The IRS has data that could have
The American Recovery and Reinvestment Act           been used to identify these erroneous
of 2009 (Recovery Act) modified the law related      deductions.
to energy credits to encourage the purchase of
                                                     WHAT TIGTA RECOMMENDED
energy efficient property and renewable sources
of energy for use in a home. The Internal            TIGTA recommended that the Commissioner,
Revenue Service (IRS) cannot verify whether          Wage and Investment Division:
individuals claiming Residential Energy Credits
are entitled at the time their tax returns are       • Revise the Residential Energy Credits
processed. Inadequate verification increases           (Form 5695) to request specific information
the risk that taxpayers will be allowed to receive     supporting key eligibility requirements that
erroneous Residential Energy Credits.                  could be used to verify requirements were
                                                       met.
WHY TIGTA DID THE AUDIT
                                                     • Examine the tax returns of the 362 individuals
This audit was initiated because TIGTA is              TIGTA identified as being in prison or
required to monitor the IRS’s implementation of        underage to ensure these individuals qualify
Recovery Act provisions. More than 6.8 million         for the Residential Energy Credits.
individuals claimed more than $5.8 billion in
Residential Energy Credits on Tax Year 2009          • Ensure processes are implemented to identify
tax returns processed through December 31,             and review tax returns filed by prisoners or
2010. Our review assessed the effectiveness of         underage individuals to ensure they qualify for
the IRS’s process to identify erroneous                Residential Energy Credits claimed.
Residential Energy Credits.
                                                       The IRS agreed with the first and third
WHAT TIGTA FOUND                                       recommendations and plans to take corrective
                                                       actions. The IRS partially agreed with the
The IRS cannot verify whether individuals              second recommendation. Specifically, the
claiming Residential Energy Credits are entitled       IRS agreed to review the returns of the
to them at the time their tax returns are              362 individuals identified as being in prison or
processed. The IRS does not require individuals        underage and plans to audit those returns that
to provide any third-party documentation               warrant further examination.
supporting the purchase of qualifying home
improvement products and/or costs associated
with making energy efficiency improvements and
whether these qualified purchases and/or
improvements were made to their principal
residence.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 19, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Processes Were Not Established to Verify
                                 Eligibility for Residential Energy Credits (Audit # 201040109)

 This report presents the results of our review to assess the effectiveness of the Internal Revenue
 Service’s (IRS) process to identify erroneous Residential Energy Credits. This audit was
 conducted as part of the Treasury Inspector General for Tax Administration Fiscal Year 2010
 Annual Audit Plan and addresses the major management challenge of Erroneous and Improper
 Payments and Credits.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                 Processes Were Not Established to Verify
                                  Eligibility for Residential Energy Credits




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Cannot Verify Eligibility
          for Residential Energy Credits at the Time a Tax Return
          Is Processed ................................................................................................... Page 4
                    Recommendation 1:.......................................................... Page 5

          Erroneous Residential Energy Credits Were Allowed to
          Ineligible Individuals Even Though the Internal Revenue
          Service Had Data to Identify These Claims During Tax
          Return Processing ......................................................................................... Page 6
                    Recommendations 2 and 3: ................................................ Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measure ................................................................ Page 13
          Appendix V – Residential Energy Credits (Form 5695) .............................. Page 14
          Appendix VI – Management’s Response to the Draft Report ...................... Page 16
                  Processes Were Not Established to Verify
                   Eligibility for Residential Energy Credits




                             Abbreviations

e-filed, e-file       Electronically filed; electronic file
IRS                   Internal Revenue Service
TIGTA                 Treasury Inspector General for Tax Administration
                             Processes Were Not Established to Verify
                              Eligibility for Residential Energy Credits




                                              Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 made important
changes to the law relating to energy credits. The Recovery Act modified the provisions for both
the Nonbusiness Energy Property Credit and the Residential Energy Efficient Property Credit.
The modifications to the Nonbusiness Energy
Property Credit were to encourage the purchase of         The Recovery Act modified the law
energy efficient property for an individual’s principal       related to energy credits to
residence that were designed to reduce heat loss          encourage   the purchase of energy
                                                           efficient property and renewable
during cold months or heat gain during warm months.
                                                         sources of energy for use in a home.
The Residential Energy Efficient Property Credit is
for use in an individual’s principal or secondary
residence to encourage the purchase of renewable sources of energy for use in a home. The
amount of both of the Residential Energy Credits allowed reduces an individual’s taxes owed.
    •    Nonbusiness Energy Property Credit – allows individuals to take a credit of 30 percent
         of the costs paid or incurred in Calendar Year 2009 for energy efficient products for their
         principal residence with a maximum of $1,500 total for Tax Years 2009 and 2010.
         Energy efficient products, such as windows and doors, had to be placed in an individual’s
         existing principal residence. New construction and rental property not owned and
         occupied by the individual when the energy saving improvements were made do not
         qualify for this Credit.
    •    Residential Energy Efficient Property Credit – allows individuals to take a credit for
         investments in alternative energy equipment2 for their principal residence or secondary
         residence. This Credit generally equals 30 percent of qualifying alternative energy
         equipment costs with no dollar limit. Alternative energy equipment, like a geothermal
         heat pump or wind energy system, could be placed in an individual’s newly constructed
         or existing principal or secondary residence. However, individuals claiming this Credit
         for a fuel cell system3 have to install it in their principal residence to qualify for this
         Credit. Rental property does not qualify for the Credit.
For both of the above energy credits, the individual’s principal (or secondary, if applicable)
residence must be located in the United States. The individual’s principal (or secondary, if
applicable) residence can include a house, manufactured home, mobile home, condominium,

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Equipment must be placed in service by December 31, 2016.
3
  The Credit amount for costs paid for a fuel cell system is limited to $500 for each one-half kilowatt of power
capacity.
                                                                                                              Page 1
                             Processes Were Not Established to Verify
                              Eligibility for Residential Energy Credits




cooperative apartment, or houseboat. Both credits are claimed on the Residential Energy Credits
(Form 5695)4 that is included with an individual’s U.S. Individual Income Tax Return
(Form 1040). Figure 1 identifies the volumes of tax returns and Residential Energy Credits
allowed for Tax Year 2009.
                             Figure 1: Tax Year 2009 Tax Returns
                       With Claimed Residential Energy Credits Allowed

          Type of Tax Return Filed                Volume                  Energy Credits Allowed

                    Paper                        1,601,687                     $1,512,642,024

                  Electronic                     5,183,701                     $4,313,474,451
                    Totals                       6,785,388                     $5,826,116,475
        Source: Tax return data for Processing Year 2010 as of Cycle 52 (December 31, 2010).

The 2010 Filing Season review identified some problems with the processing of
Residential Energy Credits
The Treasury Inspector General for Tax Administration (TIGTA) 2010 Filing Season report5
determined that:
    •     Individuals were allowed energy credits exceeding the maximum amounts. Our review
          identified 171 individuals claiming $453,220 in erroneous Nonbusiness Energy Property
          Credits for Tax Year 2009. These individuals claimed a credit that exceeded the
          maximum allowable amount of $1,500 for all filing filing statuses reporting only one
          principal residence (or $3,000 for married filing jointly in certain circumcumstances).6 The audit
          determined that programming of an electronic file (e-file) reject code had not been implemented to
          prevent individuals from claiming a Nonbusiness Energy Property Credit exceeding the maximum
          allowable amount. Internal Revenue Service (IRS) management agreed to ensure computer systems
          are programmed to identify individuals exceeding the maximum allowable Nonbusiness
          Energy Property Credit. This included programming to reject e-filed tax returns with this
          condition.
    •     The IRS was unable to accurately track and account for both types of energy credits
          claimed on *****5**********. Our review identified that the IRS cannot accurately track
          and account for both types of energy credits claimed ***5**********. ******5******
          *****5***************, the amounts of Residential Energy Credits are included on a line
          on the Form 1040 with two additional tax credits. The IRS has programming in place to

4
  Appendix V provides an example of Form 5695.
5
  Verifying Eligibility for Certain New Tax Benefits Was a Challenge for the 2010 Filing Season (Reference
Number 2010-41-128, dated September 30, 2010).
6 If a taxpayer and his or her spouse owned and lived apart in separate main homes, they may each qualify for
 $1,500.                                                                                                      Page 2
                       Processes Were Not Established to Verify
                        Eligibility for Residential Energy Credits




       identify tax returns with any amount claimed on this line. Tax examiners then review the
       tax returns and move the amounts into appropriate fields. The Form 5695 has two
       credits, the Nonbusiness Energy Property Credit and the Residential Energy Efficient
       Property Credit. The IRS combines the amounts for these two credits into one field,
       Residential Energy Credits. Combining the two credits into one total ***5*********
       impairs the IRS’s ability to accurately report the number of claims and the respective
       amounts paid for the Nonbusiness Energy Property Credit and the Residential Energy
       Efficient Property Credit.
Recovery Act activities require a high level of scrutiny, and taxpayer dollars spent on economic
recovery must be subject to unprecedented levels of transparency and accountability. Federal
agencies are required to ensure Recovery Act funds are used for authorized purposes and
appropriate measures are taken to prevent fraud, waste, and abuse. As such, the TIGTA is
required to monitor the IRS’s implementation of Recovery Act provisions, and this audit was
conducted to meet those requirements.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and the Submission Processing Site in Kansas City, Missouri, during the period
September 2010 through February 2011. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                         Processes Were Not Established to Verify
                          Eligibility for Residential Energy Credits




                                   Results of Review

The Internal Revenue Service Cannot Verify Eligibility for Residential
Energy Credits at the Time a Tax Return Is Processed
The IRS cannot verify whether individuals claiming Residential Energy Credits are entitled to
them at the time their tax returns are processed. The IRS does not require individuals to provide
any third-party documentation supporting the purchase of qualifying home improvement
products and/or costs associated with making energy efficiency improvements and if these
qualified purchases and/or improvements were made to their residence. Instead, the IRS relies
on individuals claiming the Residential Energy Credits to comply with tax laws and to provide
correct information on their tax returns. Figure 2 shows the key requirements for claiming
Residential Energy Credits that the IRS cannot verify at the time a tax return is processed.
                          Figure 2: Key Residential Energy Credit
                          Requirements the IRS Is Unable to Verify
                                                             Can the IRS Verify When the
                          Key Requirement                     Tax Return Is Processed?
           Individual Purchased a Qualified Energy                      No
           Saving Product and/or Made Energy Efficiency
           Improvements
           Cost of Energy Saving Improvements                           No
           Energy Saving Improvements Made to the                       No
           Individual’s Home
           Time Period Costs/Improvements Made                          No
         Source: IRS procedures and tax form instructions.

Individuals with no record of owning residential property claimed erroneous
Residential Energy Credits
We reviewed a statistically valid sample of 150 tax returns from individuals who were allowed
Residential Energy Credits. We did not project a noncompliance rate to the population using this
sample because of the potential for omissions or errors in this type of third-party reporting.
Our computer analysis of 6,466,981 Tax Year 2009 tax returns with Residential Energy Credits
processed between January 1, 2010, and July 23, 2010, identified 302,063 (5 percent) that did not
show any indication of home ownership. Residential Energy Credits claimed on these tax
returns totaled more than $234 million.
                                                                                           Page 4
                        Processes Were Not Established to Verify
                         Eligibility for Residential Energy Credits




Our research of third-party data for a statistically valid sample of 150 of these 302,063 tax
returns identified:
   •   105 (70 percent) for which the individuals owned a home.
   •   45 (30 percent) for which the individuals had no record of owning a home. These
       individuals claimed $30,201 in potentially erroneous Residential Energy Credits,
       resulting in a net tax effect of $29,962. To determine if the individuals claiming these
       credits owned a principal residence, we used the same third-party vendor information that
       the IRS uses when examining questionable tax returns. The third-party vendor receives
       property deed data from all of the 50 States, and the District of Columbia and the Virgin
       Islands. Most States send property deed data monthly to this third-party vendor, with
       some States providing the data more frequently.
The Office of Management and Budget has established five broad requirements that all agencies
must follow in order to meet accountability objectives relating to Recovery Act funds. These
requirements are posted on Recovery.gov. The third requirement is that Federal agencies ensure
Recovery Act funds are used for authorized purposes and take steps needed to mitigate instances
of fraud, waste, and abuse. The IRS has not established processes to ensure individuals are
appropriately claiming Residential Energy Credits. In addition to the IRS not requesting any
third-party information to verify Residential Energy Credits claimed, the Form 5695 does not
require individuals to provide the information, which could serve as a deterrent for those
individuals who intend to erroneously claim these credits.
IRS management noted that they had no plans during Filing Season 2010 to select and perform
post-processing reviews focusing on individuals that claim Residential Energy Credits.
However, in its Compliance 2011 Plan, the IRS states that it will review ****5*************
******5******************. 

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should revise the
Form 5695 to request specific information supporting key eligibility requirements that could be
used to verify requirements were met and may serve as a deterrent for those individuals who
intend to erroneously claim these credits. For example, the Form 5695 revisions could include
requiring the address of the residence for which the qualified energy-saving product and/or
energy efficiency improvement was made, whether the product and/or improvement was made to
their principal or secondary residence, and whether the residence was new construction or an
existing structure.
       Management’s Response: IRS management agreed with this recommendation.
       Form 5695, Residential Energy Credits, will be revised to request specific information
       concerning the property, such as requiring the specific address, whether the property was

                                                                                                Page 5
                            Processes Were Not Established to Verify
                             Eligibility for Residential Energy Credits




        the primary or secondary residence, and whether the improvements were made as part of
        building a new home or modifying an existing home.

Erroneous Residential Energy Credits Were Allowed to Ineligible
Individuals Even Though the Internal Revenue Service Had Data to
Identify These Claims During Tax Return Processing
We identified 362 ineligible individuals who were allowed to erroneously claim $404,578 in
Residential Energy Credits on their tax returns. This occurred because the IRS did not develop a
process to identify prisoners or individuals who were under the age needed to enter into a
contract to purchase a residence claiming the credits. Moreover, the IRS has data that could have
been used to identify these erroneous credits.
Figure 3 below shows the breakdown of the ineligible individuals who were allowed the
Residential Energy Credits.
                         Figure 3: Breakdown of Ineligible Individuals6
                                                          Number of
                    Type of Ineligible Claimant           Individuals       Amount Allowed
                    Prisoner                                  262                 $343,487
                    Underage                                  100                   $61,091
                    Total                                     362                 $404,578
                 Source: TIGTA analysis of IRS computer files.

Prisoners were erroneously allowed $343,487 in Residential Energy Credits in
Tax Year 2009 even though they were in prison for the entire year
We determined that 262 prisoners who filed tax returns as single or head of household were
allowed Residential Energy Credits totaling $343,487, although they were in prison for all of
Tax Year 2009 when these energy-saving improvements were purportedly purchased. The IRS
has data that can be used to identify prisoners erroneously claiming these credits.




6
 Figure 3 illustrates the number of ineligible individuals for whom the IRS allowed erroneous Residential Energy
Credits on their Tax Year 2009 tax returns. We subsequently evaluated the tax effect of the IRS allowing these
erroneous Residential Energy Credits and determined that 350 of 362 ineligible individuals’ taxes were lowered by
$397,158 as a result. See Appendix IV for more details.
                                                                                                          Page 6
                        Processes Were Not Established to Verify
                         Eligibility for Residential Energy Credits




Underage individuals were erroneously allowed $61,091 in Residential Energy
Credits
We identified 100 individuals under the age of 18 (26 of these were under the age of 14) who
were allowed $61,091 in Residential Energy Credits. The youngest individual receiving the
credit was 3 years old. Contract law generally exempts children under the age of 18 from being
bound by the terms of a contract. Therefore, it is unlikely that these individuals would have
entered into an arms-length transaction for the purchase of a residence. The IRS has data that
can be used to identify underage individuals erroneously claiming these credits.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Examine the tax returns of the 362 individuals we identified as being in
prison or underage to determine whether these individuals qualify for the Residential Energy
Credits.
       Management’s Response: IRS management partially agreed with this
       recommendation. The IRS will review the returns of the 362 individuals identified as
       being in prison or underage and will audit those returns that warrant further examination.
Recommendation 3: Ensure processes are implemented to identify and review tax returns
filed by prisoners or underage individuals to ensure they qualify for Residential Energy Credits
claimed.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has processes in place to identify returns filed by prisoners, underage individuals,
       and others that are questionable and appear to improperly claim credits and deductions.
       Although these processes were developed to provide more stringent screening for higher
       risk returns claiming refundable credits, such as the Earned Income Tax Credit, the
       First-Time Homebuyer Credit, and the Adoption Credit, that screening process is not
       restricted to those high-risk items. The Residential Energy Credits, along with other
       items of income, deductions, and credits, are also subject to review and contribute to the
       factors evaluated in selecting returns for examination.
       The IRS continuously assesses and evaluates compliance risks in meeting the goal of a
       balanced compliance program that strategically addresses the most egregious
       noncompliance across all taxpayer segments. As part of the IRS’s ongoing research
       efforts and its 2011 American Recovery and Reinvestment Act Examination plan, it will
       review a sample of Residential Energy Credit cases in a post-refund environment. Those
       warranting examination will be selected for audit, and the results will be factored into
       future American Recovery and Reinvestment Act examination plans.


                                                                                           Page 7
                            Processes Were Not Established to Verify
                             Eligibility for Residential Energy Credits




                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the IRS’s process to
identify erroneous Residential Energy Credits. To accomplish this objective, we:
I.      Determined the actions taken by the IRS to identify erroneous Residential Energy Credit
        claims.
        A. Participated in a walkthrough at the IRS Submission Processing Site in Kansas City,
           Missouri, to determine efforts taken by IRS functions to identify erroneous
           Residential Energy Credit claims.
        B. Interviewed IRS management and analysts in the Code and Edit, Error Resolution,
           and Examination functions to identify steps taken to verify the accuracy of
           Residential Energy Credit claims.
        C. Reviewed Internal Revenue Code Section 25C (Nonbusiness Energy Property Credit),
           Internal Revenue Code Section 25D (Residential Energy Efficient Property Credit),
           and Internal Revenue Manual sections pertaining to the processing of individual
           income tax returns with Residential Energy Credits, as well as IRS tax forms and
           publications used to process individual tax returns with Residential Energy Credits.
II.     Determined whether individuals are accurately claiming Residential Energy Credits on
        their tax returns.
        A. Selected a statistically valid sample of 150 tax returns of 302,063 Tax Year 2009
           individual tax returns with allowed Residential Energy Credits and no indicators of
           home ownership and rental property ownership to assess the actions taken by the IRS
           to validate these tax credits.1 The returns were processed on the IRS’s Individual
           Master File/Individual Return Transaction File2 between January 1, 2010, and


1
  To assess the reliability of the computer data processed through July 23, 2010, the TIGTA Office of Information
Services validated the data that were extracted from IRS systems and we verified the accuracy of the data by
comparing judgmental samples of data to the IRS information residing on the Integrated Data Retrieval System.
The Integrated Data Retrieval System is an IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
2
  The Individual Master File contains general entity information for individual taxpayers such as name, address, and
Social Security Number. The Individual Return Transaction File contains data transcribed from individual tax forms
and accompanying schedules. The Individual Return Transaction File data were extracted from the IRS’s
mainframes and a run-to-run balancing was used, which involves documenting the records read in and written out at
each step of the file processing to ensure all records were received and loaded.
                                                                                                            Page 8
                             Processes Were Not Established to Verify
                              Eligibility for Residential Energy Credits




              July 23, 2010. We used attribute sampling to calculate the minimum sample size n,
              which was rounded to 150:
              n = (Z2 p (1-p))/ (A2)
              Z = Confidence Level:            90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence: 5 percent
              A = Precision Rate:              ±3 percent
              1. Used the third-party property research tool to identify property records to
                 determine whether allowed Residential Energy Credits met the legal requirements
                 of Internal Revenue Code Sections 25C and 25D.
III.     Determined whether the IRS allowed ineligible individuals to claim Residential Energy
         Credits.
         A. Matched 6,466,981 Tax Year 2009 individual income tax returns with Residential
            Energy Credits to the IRS’s 2009 Prisoner File3 to identify prisoners. We validated
            the accuracy of the data from the match by comparing a judgmental sample of 25 of
            the individuals identified as prisoners to the information residing on the IRS’s
            Integrated Data Retrieval System.
              1. Matched only Prisoner File individuals with a filing status of single or head of
                 household.
              2. Matched only Prisoner File individuals in prison for all of Tax Year 2009.
         B. Matched 6,466,981 Tax Year 2009 individual income tax returns with Residential
            Energy Credits to the IRS’s National Account Profile4 to identify individuals under
            age 18. The computer file of tax return data was assessed for reliability by the
            TIGTA Office of Information Services. The National Account Profile data were
            assessed for reliability by the TIGTA Data Center Warehouse. We validated the
            accuracy of the data by reviewing a judgmental sample of 25 individuals whose age is
            less than 18 and comparing the data to the information residing on the IRS’s
            Integrated Data Retrieval System.




3
  The Federal Bureau of Prisons and individual States voluntarily provide the IRS with the information for the
Prisoner File, and the IRS receives most of the data to update the file in August and September. The TIGTA has
previously reported concerns with the reliability of the data in the Prisoner File and, as such, our analysis is only as
reliable as the data on which it is based.
4
  The National Account Profile contains IRS and Social Security Administration information for name control, date
of birth, and date of death for each taxpayer identification number.
                                                                                                                 Page 9
                             Processes Were Not Established to Verify
                              Eligibility for Residential Energy Credits




Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the American Recovery and Reinvestment
Act of 2009;5 the Internal Revenue Manual; the Standards for Internal Control in the Federal
Government;6 and the IRS’s policies, procedures, and practices for processing Residential
Energy Credits. We evaluated these controls by interviewing IRS tax processing personnel,
examining applicable information, and reviewing samples of tax returns with Residential Energy
Credits.




5
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
6
    Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1).
                                                                                       Page 10
                      Processes Were Not Established to Verify
                       Eligibility for Residential Energy Credits




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Gwendolyn Gilboy, Lead Auditor
Linda L. Bryant, Senior Auditor
Sharon Buford, Senior Auditor
Kathleen Hughes, Senior Auditor
Lawrence N. White, Senior Auditor
Denise Gladson, Auditor
Jonathan Lloyd, Auditor
Robert Carpenter, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                    Page 11
                     Processes Were Not Established to Verify
                      Eligibility for Residential Energy Credits




                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 12
                       Processes Were Not Established to Verify
                        Eligibility for Residential Energy Credits




                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Revenue Protection – Actual; $397,158. This amount is based on 350 ineligible individuals
    who were allowed to erroneously claim Residential Energy Credits on their tax returns
    (see page 6).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 362 individuals who were in prison or under the age
needed to enter into a contract to purchase a residence and were allowed to erroneously claim
these credits. Revenue Protection is comprised of 262 individuals in prison with a tax effect of
$343,487 and 88 of 100 underage individuals with a tax effect of $53,671, with the remaining
12 underage individuals having no tax effect from the allowed Residential Energy Credits on
their tax returns. Thus, the IRS erroneously allowed 350 (262 + 88 = 350) ineligible individuals
to receive the benefit of Residential Energy Credits on their tax returns which lowered their tax
by $397,158 ($343,487 + $53,671 = $397,158). Despite having the data available, the IRS did
not develop a process to identify these individuals who filed tax returns erroneously claiming
these credits.




                                                                                          Page 13
     Processes Were Not Established to Verify
      Eligibility for Residential Energy Credits




                                                   Appendix V

Residential Energy Credits (Form 5695)




                                                        Page 14
Processes Were Not Established to Verify
 Eligibility for Residential Energy Credits




                                              Page 15
       Processes Were Not Established to Verify
        Eligibility for Residential Energy Credits




                                                     Appendix VI

Management’s Response to the Draft Report




                                                          Page 16
Processes Were Not Established to Verify
 Eligibility for Residential Energy Credits




                                              Page 17
Processes Were Not Established to Verify
 Eligibility for Residential Energy Credits




                                              Page 18
Processes Were Not Established to Verify
 Eligibility for Residential Energy Credits




                                              Page 19
